NRC: OIG/97A-01 - NRC Needs Comprehensive Plan to Resolve Regulatory Issues
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1997 > OIG/97A-01
OIG/97A-01 - NRC Needs Comprehensive Plan to Resolve Regulatory Issues
Contents
Overview
Report Synopsis
Introduction
Findings
Conclusion
Recommendation
Agency Comments
Objectives, Scope, and Methodology
Major Contributors to this Report
Glossary: Office of the Inspector General Products
Overview
Office of the Inspector General U.S. Nuclear Regulator Commission Washington, D.C. 20555-0001 August  21, 1997
Memorandum to:
L. Joseph Callan Executive Director for Operations
From:
Thomas J. Barchi Assistant Inspector General for Audits
Subject:
NRC Needs Comprehensive Plan to Resolve Regulatory Issues
Attached is the Office of the Inspector General's audit report entitled "NRC Needs Comprehensive Plan to Resolve Regulatory Issues."  This report reflects the results of the OIG's audit of the agency's response to the events at Millstone and Maine Yankee.
On July 11, 1997, we provided a draft of this report to the Deputy Executive Director for Regulatory Programs (DEDR).  On August 13, 1997, the DEDR responded to our draft report and agreed with the objectives of the report's recommendation.  However, he stated that rather than conducting a separate effort to accomplish these objectives, the staff will factor insights from the report into other on-going agency activities.  We agree that no separate effort is necessary to address the report's recommendation as long as quarterly reports are provided to OIG on the progress being made through these activities, with specific focus on the seven elements listed in the recommendation.
Please contact me on 415-5915 if we can assist you further in this matter.
Report Synopsis
In 1993, the Nuclear Regulatory Commission (NRC) became aware of engineering practices at  Northeast Utilities', Millstone Unit 1, which were outside of Millstone's design bases and a violation of its license.  Over the next two years, additional NRC inspections and reviews of operations at all three Millstone units identified numerous other issues of concern regarding licensed activities and design bases compliance.  In 1995, NRC received allegations regarding improprieties at  the Maine Yankee Nuclear Power Plant while it was shut down for refueling.
Prompted by these events, issues identified in related Office of the Inspector General reports, and other internal reviews, the agency initiated a number of actions to address regulatory weaknesses.  These actions included establishing Millstone and Maine Yankee Lessons Learned task groups and requesting licensees provide information on the design bases documentation for each plant.  The Millstone Lessons Learned reports identified a number of regulatory weaknesses relating to the use of certain regulatory terms, including:  licensee commitment, final safety analysis report, design bases and licensing basis.  The  Commission is currently evaluating and preparing its response to the staff on these issues.  Our audit work found that the meanings of these regulatory terms are unclear to many NRC and licensee staff.
In addition, the incident at Maine Yankee demonstrated the agency's vulnerability from reliance on licensees to provide information on commitments they have made to the NRC. Commitments are made in response to an issue of some regulatory concern and; therefore, we believe if the concern was significant enough for the agency to request licensees take an action, the agency should track and verify its completion.
In response to the events at Millstone and Maine Yankee, the agency has taken a number of actions, and has plans for more, related to enforcing strict compliance with regulatory requirements which have large resource costs to both the agency and the industry.  We found that some of these actions may not produce a safety benefit commensurate with their cost to the agency to enforce, and to the industry to implement.  We believe NRC needs to recognize the cost to verify compliance with regulatory requirements may not produce commensurate safety benefits.  In addition, experiences with the agency's efforts to develop risk-informed, performance-based regulations, specifically the Maintenance Rule, have also proven to be costly to both the agency and the industry.
We recognize NRC needs to be assured that licensees are operating their plants
safely by enforcing regulatory requirements. However, our review indicates there
is the potential for a conflict between the goal of focusing on issues of greatest
safety significance and focusing agency resources on verifying licensee compliance
with regulations of limited safety benefit. Therefore, it is critical for the
agency to strike a balance between compliance with current requirements and
the move to risk-informed, performance-based regulation. One of the primary
purposes of risk-informed, performance-based regulation is to allow the agency
to target its resources on issues of greatest safety significance. We believe
a comprehensive, integrated plan could be used to guide the agency in focusing
resources on the most safety significant issues. As a part of this plan, NRC
needs to clearly articulate how it will meet its goal of moving to a risk-informed,
performance-based regulatory system while maintaining regulatory standards.
In addition, we believe that a focus on plant safety will enhance the agency's
credibility as an effective regulator.
Introduction
In 1993, the Nuclear Regulatory Commission (NRC) became aware of refueling practices at  Northeast Utilities' Millstone Unit 1, which were outside of Millstone's design bases and a violation of its operating license.  Over the next two years, additional NRC inspections and reviews of operations at Millstone identified numerous other issues of concern regarding licensed activities and design bases compliance.  In addition, allegations regarding improprieties at the Maine Yankee Nuclear Power Plant were received by the NRC in 1995 while it was shut down for refueling.   As of July 10, 1997, Millstone and Maine Yankee remain shut down while taking corrective actions prior to their restarting.
Prompted by these events, issues identified in related Office of the Inspector
General (OIG) reports, and other internal reviews, the agency initiated a number
of actions to address regulatory weaknesses. These actions included establishing
Millstone and Maine Yankee Lessons Learned task groups; evaluating possible
changes to 10 CFR 50.59(1), "Changes, Tests, and
Experiments;" and issuing a 10 CFR 50.54(f)(2)
letter to licensees requesting information on the design bases documentation
for each plant. The Commission has made some policy decisions based on staff
recommendations in the Millstone Lessons Learned reports and will decide on
other policy issues in the future. At the same time, the Commission is also
committed to making NRC's regulations more risk-informed and performance-based.
OIG conducted this review to evaluate agency actions undertaken to respond to
regulatory weaknesses identified as a result of these incidents and subsequent
internal self-assessments, and the effect of these actions on long-range regulatory
goals. We interviewed NRC managers and staff at headquarters and selected regional
offices, and industry representatives. Appendix I contains additional information
regarding our objectives, scope, and methodology.
Background
NRC staff, the Commission, and the nuclear industry have long debated the need for more precise definitions for such regulatory terms as current licensing basis, design bases, and licensee commitments.  In general, the licensing basis includes technical specifications, license conditions, licensee responses to generic letters and bulletins, the regulations, and the Final Safety Analysis Report (FSAR)(3).  The design bases contain information which identify the functions to be performed by the systems, structures, and components in a nuclear power plant.
The topic of licensee commitments, which may or may not be considered as part of the licensing basis, has seen much controversy pertaining to their definition, legal standing, and enforceability.  Licensees can make commitments which fall outside of any enforceable arena, and therefore, are not subject to any regulatory controls.  On the other hand, some commitments made by licensees may be made part of the licensing basis, and therefore, enforceable.  An internal guidance document issued in 1981 emphasized that agency staff should refrain from making a common practice of relying on licensees' commitments for granting licenses and/or amendment approvals.  While this guidance did not provide a formal definition of licensee commitments, it did state that licensee commitments considered crucial in the decision-making process should be identified in documents of appropriate importance and should be documented by the licensees, identified in the staff's safety evaluation report, and reflected in the plants' FSARs as part of the technical specifications or as a license condition.  Once a commitment becomes part of the FSAR, it becomes a legally binding, controllable item.  However, when the 1981 guidance was revised and reissued in 1989, the Office of Nuclear Reactor Regulation (NRR) did not reaffirm this policy.
In the late 1980s, NRC special inspection teams found that some licensees were not adequately maintaining their design bases documentation.  The NRC considered the need to develop additional regulatory requirements to implement mandatory design document reconstitution programs, but decided in 1991 that the existing requirements were sufficient.  The Commission issued a policy statement in August 1992 summarizing NRC regulations relating to design basis information and emphasizing the importance of a thorough review prior to making any modifications to a facility.   The statement also discussed staff plans to issue a generic letter which would request each licensee to voluntarily submit information about their programs for improving their design bases documentation, or reasons for not having such a program.  The industry's trade association put forth, and the NRC confirmed, that many licensees were already implementing reconstitution programs to improve design bases documentation.  Therefore, in 1993, the NRC decided not to issue this generic letter, but to rely instead on the licensees' individual commitments to conduct self-assessments and to correct deficiencies.
In January 1993, NRC established a Regulatory Review Group (RRG) which was tasked to review power reactor regulations and related processes, programs, and practices.  The RRG recommended defining the term "commitment" and creating a process for changing licensee commitments.  The RRG deemed this recommendation to be so important that they developed a proposed rulemaking on this subject and attached it to the final report which was issued in August 1993.  However, NRC managers did not recommend that the Commission adopt the RRG recommendation.  In the final RRG implementation status report, issued in February 1996, the staff also determined that the definitions of "current licensing basis" in 10 CFR Part 54 and "design basis" in 10 CFR Part 50 were adequate and should not be changed nor added to additional regulations.
In October 1993, Northeast Utilities submitted to the NRC a licensee event report stating that Millstone Unit 1 had been off-loading all the nuclear fuel during refueling outages, even though the licensee's design bases stated that only one-third of the fuel was to be removed.  The NRC followed up on this matter with several inspection reports between the periods of April 1994 and September 1995 to verify plant operations and compliance.   A supplemental report submitted in December 1995 contained detailed information that showed Millstone had repeatedly refueled in a manner inconsistent with its updated FSAR.
Events at Millstone prompted several internal reviews, including investigations by NRC's OIG and the Office of Investigations.  In November 1995, the NRC Chairman directed the staff to perform a Millstone lessons learned review.  A task group was formed to conduct this review to "explore whether existing oversight processes need improvement or new processes need to be developed which would have produced earlier NRC recognition of an action on Millstone Unit 1 noncompliance with its FSAR."  The events at Millstone also prompted the NRC to conduct inspections on the maintenance of licensing basis information, particularly relating to the design bases, at a number of licensees.  These inspections found that other plants had not appropriately accounted for, nor documented changes made to their operating licenses, including changes to licensee commitments.  As a result, the agency initiated several actions to address these weaknesses, including evaluating possible changes to 10 CFR 50.59, and issuing a 10 CFR 50.54(f) letter to each licensed utility directing them to provide information on their processes for maintaining their design bases information.
The Millstone Lessons Learned Report, Part 1, issued September 1996, consisted of a staff-level review with recommendations related to inspection, licensing, enforcement and licensee reporting.  The report stated that the agency's lack of emphasis on verifying FSARs and the misinterpretation and non-implementation of 10 CFR 50.71(e), the FSAR update rule, by staff and licensees contributed to the inadequate maintenance of the FSARs by licensees.  The report also stated that reviews of licensee reports indicated that some licensees do not meet all of the commitments made to the NRC.  Millstone Lessons Learned Report, Part 2, issued in February 1997, presented the Commission with options and recommendations for addressing the policy issues related to its findings in the Part 1 report.  The Part 2 report included recommendations that the licensees explicitly identify licensing basis commitments in all future communications.  The report also recommended that the agency review selected past licensing commitments to verify their implementation, and that a system be developed by the agency to identify, track, and follow up on licensee commitments.  A number of  long-term recommendations which would require rulemaking and need Commission direction prior to any further actions were also made, including the need to  reevaluate the definition of "current licensing basis" and development of a plan to establish a control system for licensing-basis commitments which are currently outside of regulatory control.  However, the task group noted that all of their recommendations have resource implications which could be significant for the agency and the licensees.
Subsequent to the completion of our field work and in response to the staff's recommendations, the Commission issued a Staff Requirements Memorandum (SRM) on May 20, 1997.  In this SRM, the Commission approved most of the staff's short-term recommendations and requested that the staff provide a paper discussing experiences gained with their implementation.  In addition, the Commission stated that any future staff recommendations should address potential backfit(4) implications.
In addition to the problems at Millstone, NRC and OIG also conducted a number of inquiries in response to allegations made in 1995 regarding Maine Yankee's inadequate analyses of its emergency core cooling system and deliberate misrepresentations of these analyses on license amendment submittals.  The Maine Yankee Lessons Learned Task Group found that the licensee did not comply with NRC requirements regarding the use of a computer code for analyzing severe accidents, and that there was a weakness in regard to the agency's review process.  The group recommended improvements in the consistency and uniformity in code reviews, particularly the need to provide clear, formal guidance on the various types of licensee commitments and NRC staff responsibilities for tracking and verifying licensee commitments.
In an August 1996 meeting with the utility officials, NRC's Executive Director for Operations  (EDO) stated that the NRC's position has always been that the individual licensees are responsible for maintaining design bases documentation and for "performing necessary assessments of design and procedure changes which are required by NRC regulations."  However, the EDO noted that the Millstone operations which were outside of their design bases represented a breach of confidence NRC placed in licensees.  Maine Yankee's noncompliance with licensee commitments is another example of a breach of NRC's confidence.
The NRC's draft Strategic Plan proposes that the agency make its regulations
more risk-informed and performance-based to accomplish it's mission in a more
efficient and cost-effective manner. The Chairman has stated that this approach
will allow the agency and industry to target resources on those areas of nuclear
operations which have the greatest safety significance. The Commission issued
the Maintenance Rule, which went into effect last year as one of the agency's
first significant efforts at creating a risk-informed, performance-based rule.
The need to regulate in an efficient manner is becoming increasingly important
as agency resources continue to decline. The level of full-time equivalents
in the agency is projected to be reduced by more than 10% by FY 1998 from its
FY 1993 level, and may further decrease as government downsizing continues.
Contractor support dollars have also been significantly decreased. The increased
use of risk insights may help the agency better identify areas where unnecessary
regulations exist and where new requirements are needed. In April 1997, the
Commission affirmed this policy by informing the staff that they should continue
with this effort.
Findings
The events at Millstone and Maine Yankee underscore the need for the NRC to
re-evaluate and clarify certain aspects of its regulatory system. In particular,
we found that: 1) the definition of a number of regulatory terms are not clear
to licensees and staff; 2) the agency routinely relies on licensees to provide
information on commitments made to the NRC; and 3) recent agency actions are
significantly impacting NRC and licensee resources and may not be adding substantially
to operational safety. While the Commission has addressed some of these concerns,
we believe the agency needs to resolve other long-standing regulatory concerns
by developing and implementing a comprehensive, integrated plan to guide and
manage the staff in making these changes.
NRC Needs to Clearly Define and Communicate Important Regulatory Terms
The Millstone Lessons Learned reports identified a number of regulatory weaknesses relating to the use of certain regulatory terms, including licensee commitments, FSAR, design bases and licensing basis.  Our audit work confirmed that the meanings of these regulatory terms are unclear to many NRC and licensee staff.  In particular, we found that the agency has not provided clear guidance to regional personnel, such as plant inspectors, on which licensee commitments are enforceable and which are not, and how to interpret a plant's licensing basis and design bases.  Therefore, we believe regional offices, headquarters, and licensee staff may be operating with different understandings of these important regulatory terms.
The Millstone Lessons Learned Report, Part 2, stated that the utility identified the lack of understanding of the interrelationship of licensing and design documents as one root cause of the incident at Millstone.  The staff recommended providing additional guidance and increased regulatory focus on design bases issues and the updating of FSARs.  In particular, the staff addressed the need to publish guidance on the definition of design bases.  The staff also identified a number of long-term actions which could be used to address the regulatory weaknesses identified, but these actions would have significant impact on agency and licensee resources and were not recommended by the staff to be immediately implemented.
Our audit work found that the application of certain regulatory terms and processes were not clearly understood by NRC and licensee staff.  Both regional and headquarters NRC staff we spoke with believe that the regulatory terms  "licensing basis" and "design bases" are not well defined, making it difficult to know how to apply them.  For example, one manager described confusion over whether a system at a plant was to be considered "safety-related" or not; the system had been classified as safety-related during licensing, but another NRC report described the system as not being safety significant.  The manager stated that a lack of clarity regarding what documents are part of the licensing basis is keeping this issue from being resolved.  The lack of clarity of the important regulatory term "design bases" was brought up as a concern at a recent workshop for NRC project managers.  This problem has become more evident with the recent emphasis by the agency on compliance with regulatory requirements related to licensing and design bases.  Licensee staff described how the lack of a clear definition of these terms causes problems in interpreting what is required and what is outside regulation, creating disagreements and communication problems between NRC and licensee staff.   For example, resident inspectors we spoke with described a disagreement with licensee staff on whether certain design features were considered part of the design bases.  Each case specific interpretation may need to be made by headquarters and takes time to resolve.
The Commission has directed the staff to continue the implementation of most
of the short-term recommendations listed in the Lessons Learned report. While
the recommendations to be implemented address the terms "licensee commitment"
and "design bases," the Commission has not approved action on defining or clarifying
the use of "licensing basis" or "FSAR."
Reliance on Licensees for Commitment Information May Leave NRC Vulnerable
NRC does not have a centralized system for tracking licensee commitments and, in most cases, must rely upon licensees to provide information on commitments they have made.  As reported in a prior OIG report(5), the incident at the Maine Yankee nuclear power plant demonstrates NRC's vulnerability from a policy of relying on licensees to track commitments they have made regarding plant operations.  In this case, the licensee committed to using a certain computer program for analyzing potential accidents, but did not meet this commitment.  NRC closed out the action item without verifying that the licensee had complied with the commitment.
Commitments are made in response to an issue of some regulatory concern and; therefore, we believe if the concern was significant enough for the agency to request licensees to take action, it is worth tracking and verifying its completion.  NRC staff with responsibility for licensee commitments should be able to readily access reliable information on those commitments.  Commitments may be requirements of the license and be formalized in the FSAR or they may be made in docketed correspondence, such as licensee event reports, responses to notices of violation, and responses to generic letters.  Commitments not in the FSAR are not controlled by the regulatory process and may be changed without notifying NRC.
NRC and the industry are taking actions to address the management of licensee commitments.  As part of its Process Improvement Plan, NRR Projects divisions are developing a commitment management program to revise how licensee commitments are handled in the licensing process.  As part of this program, NRR staff have recommended to the Commission that a computerized commitment tracking system be established.   The staff intends for all important commitments made after the process is developed to be included in the system.   Important commitments are those that the staff has relied on as a basis for approving a licensee's proposed action.  The staff will also review selected past licensing issues to identify existing commitments and to verify their implementation.  In addition, NRC staff recommended having licensees explicitly identify their licensing basis commitments in future written communications and to encourage licensees to use guidance for managing commitments developed by the Nuclear Energy Institute (NEI), the industry's trade association, and endorsed by NRC.  NEI's "Guideline for Managing NRC Commitments"  describes a process for managing and changing commitments made to the NRC.
The Commission's May 1997 SRM responding to the Millstone Lessons Learned report
approved the staff's continuing development of a system to identify and track
licensee commitments. We endorse the agency's implementation of this action
item.
Cost of Regulatory Requirements Needs to be Commensurate with Safety Benefit
We believe that while recent regulatory actions and requirements may have enhanced NRC's confidence in licensees' design control practices, they may not necessarily produce a safety benefit commensurate with their cost to the industry to implement and the agency to enforce.  In response to the events at Millstone and Maine Yankee, the agency has taken a number of actions, and has plans for more, related to enforcing strict compliance with all regulatory requirements.  These actions have had significant resource implications for both the agency and the industry.  In addition, experiences with the agency's efforts to develop risk-informed, performance-based regulations, specifically the Maintenance Rule, have in our opinion, also proven to be costly to both the agency and the industry with potentially little foreseeable increases in safety.
While compliance with regulatory requirements is important, in a time of diminishing resources NRC needs to focus on those areas which provide the greatest safety benefit.  Emphasizing strict adherence to all NRC requirements, some of which may not be safety significant, may result in an ineffective use of resources.  In fact, the EDO recently stated  that "...you can have a plant with significant compliance trouble and still be a low risk plant."  Therefore, it is essential that the agency balance the safety benefits gained from its emphasis on strict compliance with licensing and design bases documentation with the associated cost.  Now is the time for NRC and the industry to identify those requirements which significantly contribute to plant safety and eliminate those which do not.  The goal of this effort is to minimize the expenditure of limited resources on compliance with non-safety significant requirements at the expense of those which are essential to the safe operation of a nuclear power plant.
The events at Millstone and Maine Yankee have caused the NRC to take on a number of compliance-oriented activities that have a significant impact on agency resources.  For example, NRC staff estimate that approximately $1.6 million will be spent on contractors, and over 20,000 staff hours will be used to conduct a review of Millstone's design bases and licensing basis.  In addition, it is projected that another $2.6 million will be spent on contractors to review Millstone corrective actions, as well as 16 full-time NRC staff to ensure the licensee is adequately prepared to resume operating the facility.  NRC staff pointed out these estimates are in addition to the significant inspection resources already being used by Region I at Millstone.  Further, the agency projects about $5 million will be spent on contractors to conduct design bases inspections at other  plants.  These actions have had, and will continue to have, significant impacts on other NRC regulatory activities.  For example, the demand for agency resources to hire architect/engineer contractors for the design bases inspections has forced the agency to eliminate Integrated Performance Assessment Process inspections, a program initiated in response to the need to better integrate disparate information from various agency assessments in order to ensure potential safety issues are recognized and resolved before they become plant problems.  In addition, some regional managers reported that the shift of resources to Millstone could eliminate regional initiative inspections at some plants, as well as impact Maintenance Rule inspections, and follow-ups on design bases information other licensees have submitted in response to the 50.54(f) request.
The agency's reactions to Millstone and Maine Yankee have also had a significant impact on licensee resources.  For example, the resource impact of responding to NRC's request for additional design bases information, estimated by the agency to require 400 hours of licensee staff time, has averaged over 2,000 hours per plant, according to the NEI.  NEI also stated that the burden from this request has significantly impacted an industry initiative to provide additional assurance that they are maintaining their licensing basis and operating their plants in conformance with it.  In addition, one licensee told us that NRC's recent emphasis on compliance has shifted their resources to non-safety significant issues.  The shift of resources has also hampered the licensee's efforts to standardize their technical specifications, an initiative promoted by the agency.  Another licensee stated that the emphasis on compliance has slowed their efforts to incorporate risk-informed insights into their operations.
While we recognize that it is important that NRC has confidence in licensees' design and licensing programs, much of the compliance-oriented inspection work to date has turned up little of safety significance.  The staff has stated that it may be difficult to quantify the risk associated with deficiencies in plant design or in implementation of the design; however, the agency's review of FSAR issues found none with risk significant generic implications out of 202 issues reviewed.   While some NRC staff felt these inspections were valuable, other managers told us that the inspections of licensees' design bases have provided few safety significant findings; in fact, only one Level III violation, the lowest level violation for which a civil penalty is considered, has been issued at the time of this report.  Additionally, a recent review of design errors reported from 1985-1995 concluded that the number of design errors has been steadily decreasing since the early 1990s even though the number of NRC inspector hours for engineering related inspection modules has increased during the same time period.  About two percent of these errors were significant enough to warrant further evaluation.  Further, the staff has reported, in Part 2 of the Millstone Lessons Learned report, that regulatory analysis of the long-term actions relating to design and licensing basis "would not show them to be a substantial increase in overall protection."  Thus, the staff concluded that they may not be able to justify these actions under 10 CFR 50.109, "Backfitting."  Licensees we spoke with also felt that the agency's emphasis on compliance issues is costing them significant resources without necessarily improving plant safety.
One of the reasons NRC and the industry worked together to adopt risk-informed, performance-based regulations was to help target agency and industry resources where they will produce the greatest safety benefit.  The investment to develop these regulations also requires significant resources.  For example, Maintenance Rule implementation, including the development of the guidance, workshops, training, and baseline inspections, has been resource-intensive for the agency, as well as being costly for licensees to implement.  However, the rule is not projected to provide resource savings in the future.  Furthermore, the rule was aimed at, and has been justified on the basis of, addressing problems with licensee balance-of-plant systems(6).  However, a report by the Office of Analysis and Evaluation of Operational Data shows that by 1995 the number of transients(7) caused by balance-of-plant systems had been reduced to less than a third of what it was in 1985.
In summary, in a time of diminishing resources, NRC needs to focus resources where they can provide the greatest safety benefit.  While licensee compliance with NRC requirements is important, not all of these requirements are necessarily safety significant.   For example, it was recently recognized that certain requirements for fire barrier penetration seals had no technical basis and that the staff plans to eliminate these requirements through a rule change.  We believe the agency has imposed requirements by means other than by regulation, which may not provide significant safety benefits, yet licensees must meet them and NRC must expend resources to verify licensee compliance.  Specifically, the agency may be imposing undue requirements by compelling licensees to make certain commitments in response to agency generic communications and to violations.
Now is the time to identify those requirements which do not significantly add
to plant safety and work to eliminate them. Both NRC and the industry recognize
the significant resource investment needed to ensure compliance with all NRC
requirements. The idea of eliminating unnecessary requirements is not a new
one and we recognize that it is a difficult task. However, one Commissioner
recently stated that the time is right for the industry to propose new initiatives
aimed at making NRC regulations more in line with safety, and that the Commission
is open to working with the industry to eliminate requirements lacking a true
nexus to safety. The Chairman has also stated that it is NRC's responsibility,
to its health and safety mission, to work within a regulatory framework that
is efficient and effective for both the NRC and the nuclear energy industry.
Conclusion
Recent events at Maine Yankee and Millstone have demonstrated weaknesses in NRC's regulatory system.  The Millstone Lesson Learned reports identified the need to more clearly define design bases and licensing basis, concerns confirmed by our audit work.  We believe that in order to regulate effectively,  important regulatory terms must be clarified and their meaning communicated to licensees, the NRC staff, and the public.  In addition, the incident at Maine Yankee raises questions regarding NRC's policy of relying on licensees to track licensee commitments.  OIG believes the agency needs to revisit this long-standing policy.  As long as the agency relies on licensees to provide the information on commitments, NRC will be vulnerable to incidents like that which occurred at Maine Yankee.
We also found that a number of  actions being undertaken in response to events at the Millstone nuclear power plant will require significant costs both to the agency and the licensees, yet may have little effect on the day-to-day operational safety of the plants.  In addition, other regulatory requirements, such as the Maintenance Rule, may be focusing much of the agency's attention and resources on areas which may not increase plant safety.  While it must assure itself and the public that there is sufficient licensee management control of design and licensing requirements, NRC needs to recognize that its emphasis on compliance has the potential for causing resources to be spent on issues which may provide little safety benefit.  At some point, NRC managers need to determine whether the design and licensing problems they have identified are a serious regulatory concern requiring a continued application of resources.  Such a point may be at the time the agency makes a determination regarding the reasonable assurance statements related to management controls in response to Federal Managers Financial Integrity Act requirements.  In its FY 1996 Accountability Report, the agency stated that it does not believe the issues raised from the events at Millstone resulted from a material weakness in management controls, but that the extent of the problem is unclear.  We believe that the agency should be in a position to determine the seriousness of any management controls weaknesses that may be present when it makes its reasonable assurance statements for FY 1997.
As agency resources continue to decline, NRC must strike a balance between
compliance with current requirements and the move to risk-informed, performance-based
regulation, while continuing to focus on plant safety. NRC, therefore, needs
to assure that its regulatory actions produce a safety benefit commensurate
with their resource cost. Also, in the long run, a focus on plant safety will
enhance the agency's credibility as an effective regulator.
Recommendation
NRC needs to establish a comprehensive, integrated plan to ensure that its resources are directed at the most safety significant issues and that it strikes an appropriate balance between compliance with current requirements and the goal of moving to risk-informed, performance-based regulation.  Such a plan should include steps to:
Conduct a systematic review of current requirements to assure NRC and licensee
resources are used in a manner most conducive to improving plant safety;
Develop a threshold to help managers recognize when the costs exceed the
benefits from the current focus on compliance-oriented inspections and reviews;
Clearly define and communicate the meaning and requirements of important
aspects of the regulatory system, including design bases, licensing basis,
FSAR, and licensee commitments;
Revisit the agency's policy of relying on licensees to provide information
on commitments made to the agency;
Clearly articulate how it will meet its goal of moving to a risk-informed,
performance-based regulatory system while maintaining regulatory standards;
Develop outcome-based performance measures and milestones for this effort;
and,
Be integrated with the agency's long-term Strategic Plan.
Agency Comments
The Deputy Executive Director for Regulatory Programs agrees with the objectives
of the report's recommendation. However, he stated that rather than conducting
a separate effort to accomplish these objectives, the staff will factor insights
from the report into other on-going agency activities, including the strategic
assessment, strategic plan, performance plan, budget review and development,
multiple program improvement initiatives, the rulemaking process, the planning
framework, and the GPRA implementation. We agree that no separate effort is
necessary to address the report's recommendation as long as quarterly reports
are provided to OIG on the progress being made through these activities, with
specific focus on the seven elements we recommended be included in a comprehensive
plan.
Objectives, Scope, and Methodology
The objective of this audit was to evaluate agency efforts to address the regulatory weaknesses identified by the Millstone and Maine Yankee Lessons Learned reports and related internal reviews.
During the audit we obtained the views of managers and staff from the Nuclear Regulatory Commission (NRC) and selected utilities.  To obtain the headquarters perspective, we interviewed senior managers and staff of the Office of Nuclear Reactor Regulation and the Office of the General Counsel.
To complement this information, we interviewed resident and region-based inspectors, Branch Chiefs, Division Directors, a Deputy Regional Administrator, and a Regional Administrator in NRC's Regions I and IV.
To obtain the utility industry perspective, we interviewed representatives of the Nuclear Energy Institute and managers and staff at two nuclear power plants.
We also reviewed documentation relating to this issue obtained from both NRC and the industry.
We conducted this audit in accordance with generally accepted government auditing
standards between October 1996 and April 1997.
Major Contributors to this Report
William D. McDowell Team Leader
Lindley R. Higgins Senior Management Analyst
Catherine M. Colleli
Management Analyst
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.  Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections.  Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress.  Each report indicates whether a response is required.
1. 10 CFR 50.59 requires a licensee to review proposed changes to their facility or procedures as described in their safety analysis report to determine if the proposed change can be made without prior NRC approval.
2. 10 CFR 50.54(f) is a regulation which allows the NRC to request information from a licensee in the form of a written statement, signed under oath or affirmation.
3. The Final Safety Analysis Report (FSAR) is a licensing document that provides a description and safety analysis of the site, the design, normal and emergency operation, potential accidents, predicted consequences of such accidents, and the means proposed to prevent or mitigate the consequences of such accidents.
4. 10 CFR 50.109, known as the "Backfit Rule," requires NRC to justify certain new regulatory requirements through a cost-benefit analysis.
5. NRC Staff's Actions Related to Regulation at Maine Yankee, (Case No.  96-04S, May 8, 1996).
6. "Balance-of-plant" refers to all nuclear plant systems except the Reactor Protection System, Control Rod Drive, and Reactor Coolant System.  For example, the turbine, generator, and primary feedwater systems are all considered part of the balance-of-plant.
7. A "transient" is an unplanned challenge to a plant safety
system.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees